     Department of Homeland Security

     ��������������������������


  New Jersey Complied with Applicable Federal and 

    State Procurement Standards when Awarding 

     Emergency Contracts for Hurricane Sandy 

              Debris Removal Activities 





OIG-14-45-D                             February 2014

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                                  Washington, DC 20528 / www.oig.dhs.gov


                                  FEB 2 7 20 4

MEMORANDUM FOR:               John Covell
                              Director
                              New Jersey Recovery Office
                              Federa mer ncy Man ~ ent Agency

FROM:
                              Assista           -
                                         nspector General
                              Office of Emergency Management Oversight

SUBJECT:                      New Jersey Complied with Applicable Federal and State
                              Procurement Standards when Awarding Emergency Contracts for
                              Hurricane Sandy Debris Removal Activities
                              FEMA Disaster Number 4086 DR-NJ
                              Audit Report Number OIG-14-45-D

We audited the State of New Jersey's (the State or New Jersey) procurement process for
awarding emergency contracts for statewide debris removal activities under Hurricane Sandy,
which occurred in October 2012 (FEMA Disaster Declaration No. 4086) . As of November 2013,
the Federal Emergency Management Agency (FEMA) had awarded over $463 million in Public
Assistance funding to cover Hurricane Sandy debris removal activities within New Jersey. The
awards provided 90 percent FEMA funding for eligible debris cleanup costs .

Our audit objective was to determine (1) whether New Jersey complied with applicable Federal
and State procurement standards in awarding emergency contracts for statewide Hurricane
Sandy debris removal activities, and (2) whether a local municipality's use of the State's
emergency contracts for work under a Public Assistance grant meets Federal procurement
standards.

We conducted this performance audit between May 2013 and January 2014 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective . To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time ofthe
disaster.
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

We reviewed applicable Federal and State procurement standards, FEMA guidelines, and State
procurement policies and procedures; interviewed State and FEMA officials; and performed
other procedures considered necessary to accomplish our audit objective. We did not assess
the adequacy of the State’s internal controls applicable to its procurement process because it
was not necessary to accomplish our audit objective.


                                              BACKGROUND

On October 27, 2012, as Hurricane Sandy approached the coast of New Jersey, the Governor
of New Jersey issued an executive order declaring a state of emergency. Hurricane Sandy
made landfall near Brigantine, New Jersey, on October 29, 2012, and caused historic
devastation and substantial loss of life. The storm was the second largest Atlantic hurricane
on record, with a diameter of tropical storm force winds spanning more than 900 miles. The
storm affected one of the most densely populated areas in the northeastern United States,
resulting in loss of life, major flooding, structural damage to real property, and loss of power
throughout the region. The amount of debris generated throughout the State was
unprecedented, leaving much of New Jersey inaccessible. On October 30, 2012, the
President issued a major disaster declaration authorizing Federal funding to State and
eligible local governments for debris removal and emergency protective measures, including
direct Federal assistance for eight counties in New Jersey. The current Federal cost share for
this disaster is 90 percent. Figures 1 and 2 show storm-generated debris.




                  Figure 1: Hurricane Sandy Debris along the Historic Boardwalk in Seaside Heights,
                  New Jersey.
                  Source: FEMA




www.oig.dhs.gov                                     2                                       OIG-14-45-D
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




                  Figure 2: Debris at Temporary Staging Site in Little Egg Harbor, New Jersey.
                  Source: Little Egg Harbor Township Department of Public Works.



                                              RESULTS OF AUDIT

New Jersey complied with applicable Federal and State procurement standards when procuring
emergency contracts for statewide debris removal and monitoring activities related to
Hurricane Sandy. In addition, a local municipality’s use of these contracts during the exigent
period FEMA identified (November 4, 2012, to January 3, 2013) would meet State and Federal
procurement standards.

New Jersey’s Emergency Debris Removal Contracts

New Jersey complied with applicable Federal and State procurement standards when procuring
emergency debris removal contracts for statewide debris removal related to Hurricane Sandy.
Federal procurement regulations at 44 Code of Federal Regulations (CFR) 13.36 prescribe how
states, as FEMA grantees, should procure property and services under a FEMA award.
Specifically, 44 CFR 13.36(a) requires a State to: (1) follow the same policies and procedures it
uses for procurements from its non-Federal funds, and (2) ensure that every purchase order or
other contract includes any clauses that Federal statutes and executive orders and their
implementing regulations require.

According to New Jersey procurement laws, the State must generally procure contracts for
goods or services after public advertisement for bids (New Jersey Statute Annotated 52:34-6).
However, the State may use noncompetitive procurement under exigent circumstances. New
Jersey Statute Annotated 52:34-10(b) does not require advertisement for bids when “the public
exigency requires the immediate delivery of the articles or performance of the service.”



www.oig.dhs.gov                                     3                                        OIG-14-45-D

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

Further, New Jersey Administrative Code 17:12-1A.2(c) waives the requirement for public
advertising of contracts when a public exigency exists.

The Governor of New Jersey issued Executive Order 104 on October 27, 2012, declaring a state
of emergency and activated State resources pursuant to New Jersey law. While the State had
pre-storm debris removal contracts in place with four vendors, the contracts did not provide
sufficient options to local entities given the extensive debris removal requirements. According
to the State’s Office of the Attorney General, virtually none of the 565 municipalities across the
State had existing contracts in place for debris removal when Hurricane Sandy made landfall.
While one option available to local entities was to procure their own emergency contracts on a
municipality-by-municipality basis, given that the sheer volume of the debris would overwhelm
the municipalities, the State determined that the situation required a state-level option to
municipalities for immediate use.

According to State Attorney General officials, New Jersey reached out to other states that had
suffered large magnitude storms, such as Hurricane Katrina, asking for suggestions regarding
contractors they used for debris removal. The State became aware of a 2008 debris removal
contract that the State of Connecticut competitively awarded to AshBritt Environmental
(AshBritt), a Florida-based, national rapid-response disaster recovery and special environmental
services contractor. New Jersey used this contract as a starting point and negotiated additional
terms with AshBritt, including the right of the State to suspend work in addition to canceling
the contract outright. AshBritt also agreed to comply with New Jersey’s rigorous solid-waste
transportation laws and solid-waste disposal requirements. The State secured these and other
concessions at no additional cost to the already 4-year-old prices, and awarded a 6-month
contract to AshBritt on October 31, 2012. The contract decision utilized a noncompetitive
process allowed by New Jersey statutes during periods of public exigency. The State conducted
a price analysis and determined that the contract prices were reasonable. This analysis included
comparing AshBritt’s prices to prices other states paid for debris removal services under
preceding disasters, and reviewing prices FEMA paid under U.S. Army Corps of Engineers debris
removal contracts. New Jersey made this contract available to local municipalities under its
Cooperative Purchasing Program.1

On May 13, 2013, FEMA notified the State that it had reviewed the State’s procurement
process and that it would reimburse all eligible program costs for work performed and invoiced
under the noncompetitive AshBritt contract for a period of 60 days, or from November 4, 2012,
to January 3, 2013. FEMA based its decision on the size of the storm, New Jersey's compliance
with State law in entering into the sole source contract, the public exigency that existed

1
  New Jersey’s Cooperative Purchasing Program, established by legislation, is the program through which the state
extends specific state contracts to eligible local buying units. Cooperative purchasing is a collaborative effort to
obtain benefits in pricing, product quality, and contract process efficiencies for public purchasing entities
throughout the State of New Jersey.



www.oig.dhs.gov                                      4                                        OIG-14-45-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

throughout the State after the storm, and the multiple steps the State required to award a
competitively bid contract. FEMA acted within the authority that 44 CFR 13.36(c)(4) grants the
agency.

New Jersey’s Emergency Debris Monitoring Contracts

New Jersey complied with applicable Federal and State procurement standards when procuring
emergency statewide contracts for debris monitoring services related to Hurricane Sandy.
While the State had a pre-existing statewide debris-monitoring contract in place before the
storm, the contract was limited in scope and did not meet all of the State’s needs. Therefore,
shortly after the storm, the State developed a specific Request for Quotation for debris
monitoring and identified a list of vendors with experience in debris monitoring.

On November 1, 2012, New Jersey’s Department of Environmental Protection sent the debris
monitoring Request for Quotation to five vendors from the list of firms with experience in
debris monitoring. The State subsequently received proposals from three vendors. A committee
evaluated the three proposals based on technical capabilities and price and concluded that
proposals from Arcadis U.S., Inc. and Science Applications International Corporation
represented the most advantageous offers to the State, price and other factors considered. On
November 2, 2012, and November 15, 2012, respectively, New Jersey awarded two 8-month
debris-monitoring contracts to the two vendors. The State made these contracts available to
local municipalities under its Cooperative Purchasing Program.

Local Municipality’s (Subgrantee) Use of New Jersey’s Emergency Debris Removal and
Monitoring Contracts

A local municipality’s use of New Jersey’s emergency contracts for statewide debris removal
and monitoring services related to Hurricane Sandy would meet State and Federal procurement
standards if used for the 60-day exigent period FEMA identified (November 4, 2012, to January
3, 2013).

Federal procurement standards for FEMA subgrantees, specifically local governmental entities
and non-profit organizations, differ from standards for States (as grantees). Under 44 CFR Part
13, FEMA subgrantees must use their own procurement procedures, which reflect applicable
State and local laws and regulations, provided that the procurements conform to applicable
Federal law and the standards set forth in 44 CFR 13.36(b)–(i). These procurement standards
require FEMA subgrantees, among other things, to conduct all procurement transactions in a
manner providing full and open competition. The regulations also permit noncompetitive
procurement in cases of “public exigency or emergency” (44 CFR 13.36(d)(4)(i)(B)). In addition,
FEMA’s Public Assistance Guide (FEMA 322, June 2007, p. 51) specifies that contracts for Public
Assistance work “must be of reasonable cost, generally must be competitively bid, and must
comply with Federal, State, and local procurement standards.”


www.oig.dhs.gov                             5                                 OIG-14-45-D

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Although considered “emergency work” under FEMA’s Public Assistance program, FEMA has
determined that long-term debris removal lasting weeks or months generally requires
competitive bidding to conform with Federal law and procurement standards set forth in 44
CFR 13.36. FEMA guidance states that an applicant may use a noncompetitive contract for
short-term debris removal, but should competitively bid the contract as soon as possible.2
FEMA may grant exceptions to Federal procurement standards on a case-by-case basis (44 CFR
13.6(c)).

In this particular case, FEMA determined that exigent circumstances warranted the State’s use
of an emergency noncompetitive debris removal contract for a limited period. Specifically, on
May 13, 2013, FEMA notified the State that it had reviewed the State’s procurement process
and that it would reimburse all eligible program costs for work performed and invoiced under
the noncompetitive AshBritt contract for a period of 60 days, or from November 4, 2012, to
January 3, 2013. Although FEMA’s review of the State’s procurement process did not explicitly
mention other debris removal and monitoring contracts that the State procured for Hurricane
Sandy activities, we concluded that FEMA’s 60-day authorization would apply to all emergency
statewide debris removal and monitoring contracts related to Hurricane Sandy activities.
Therefore, a local municipality’s use of these emergency contracts for the 60-day authorized
period would also comply with State and Federal procurement standards. However, a local
municipality would need to use a competitive process to award contracts for debris removal
activities outside the 60-day period to comply with FEMA guidelines and Federal procurement
standards. Therefore, FEMA should review each local municipality’s debris removal contracting
process and make a determination on the eligibility of costs on a case-by-case basis.


                       DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our review with FEMA and State officials on February 5, 2014.
FEMA and State officials concurred with the report. Because the audit did not identify issues
requiring further action from FEMA, we consider this audit closed.

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Director; William Johnson, Audit Manager;
John Schmidt, Auditor-in-Charge; and Kevin Donahue, Auditor.


2
    FEMA Disaster Assistance Fact Sheet 9580.4 – Emergency Work Contracting, October 2008.



www.oig.dhs.gov                                     6                                        OIG-14-45-D

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                            7                                 OIG-14-45-D

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                                    Appendix


                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator 

Chief of Staff 

Chief Financial Officer 

Chief Counsel

Director, Risk Management and Compliance 

Regional Administrator, FEMA Region II 

Audit Liaison, FEMA Region II 

Audit Liaison, FEMA (Job Code G-13-045-EMO-FEMA) 


Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

State
State Coordination Officer, New Jersey State Police, Homeland Security Branch
Executive Director, Governor’s Office of Recovery and Rebuilding, New Jersey
New Jersey State Auditor
Attorney General, New Jersey

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            8                                OIG-14-45-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
